<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 116-18]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 116-18

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 10, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-349 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="295946694a5c5a5d414c4559074a464407">[email&#160;protected]</a>               
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 10, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                  LEGISLATION AND ADDITIONAL MATERIAL

Text of S. 383, the Utilizing Significant Emissions with 
  Innovative Technologies Act, or the USE IT Act.................    12
Text of S. 747, the Diesel Emissions Reduction Act of 2019.......    43
Text of S. 1061, the John F. Kennedy Center Reauthorization Act 
  of 2019........................................................    46
Committee Resolutions:
    Lease, Department of Health and Human Services, Food and Drug 
      Administration, Jamaica, NY. PNY-01-QU19...................    50
    Alteration, Major General Emmett J. Bean Federal Center, 
      Indianapolis, IN. PIN-1703-IN18............................    52
    Alteration, James C. Corman Federal Building, Van Nuys, CA. 
      PCA-0007-LA18..............................................    53
    Alteration, Federal Office Building, Seattle, WA. PWA-0036-
      SE18.......................................................    54
    Alteration, Pacific Highway U.S. Land Port of Entry, Blaine, 
      WA. PWA-00BN-BL18..........................................    55
    Alteration, Anthony J. Celebrezze Federal Building, 
      Cleveland, OH. POH-0192-CL18...............................    56
    Alteration, IRS Service Center, Ogden, UT. PUT-0036-OG18.....    57
    Building Acquisition, Department of Transportation 
      Headquarters, 1200 New Jersey Avenue, Southeast, 
      Washington, DC. PDC-0689-WA19..............................    58
Letter to Senators Barrasso and Carper from the American Road and 
  Transportation Builders Association, April 24, 2019............    59

 
                            BUSINESS MEETING

                              ----------                              


                       WEDNESDAY, APRIL 10, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Braun, 
Rounds, Sullivan, Boozman, Ernst, Cardin, Whitehouse, and Van 
Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Welcome to this large crowd of paid staff 
and blood relatives. We are happy to have you here today.
    [Laughter.]
    Senator Barrasso. Good morning. I call this business 
meeting to order. Today we are going to consider three bills 
and eight General Services Administration resolutions.
    Senator Carper and I have agreed that we will begin voting 
at 10:15. At that time, I am going to call up the items on the 
agenda. We will not debate the items on the agenda while we are 
voting. Instead, we will debate the items on the agenda before 
we begin voting at 10:15. I am also happy to recognize any 
members who wish to make speeches or talk about the bills after 
the voting concludes.
    The first bill we will consider is S. 383, the Utilizing 
Significant Emissions with Innovative Technologies Act, or the 
USE IT Act. The USE IT Act is a bipartisan piece of legislation 
to promote carbon capture technologies that take carbon out of 
the air and to find productive uses for it.
    Carbon capture, utilization, and sequestration are needed 
to reduce the impacts of climate change, while also delivering 
abundant and affordable energy to the Nation.
    You don't have to take my word for it; across the board, 
carbon capture is seen as a critically important technology. 
State governments, industry stakeholders, labor organizations 
like the Utility Workers Union of America, and environmental 
groups like the Audubon Society or The Nature Conservancy all 
recognize the importance of carbon capture.
    At our hearing in February to consider the USE IT Act, we 
heard about the critical role of carbon capture technologies in 
addressing climate change. The Clean Air Task Force testified, 
``Carbon capture, utilization, and storage and direct air 
capture will play a crucial role in decarbonizing our global 
energy system.''
    Now, I have repeatedly said the best way to combat climate 
change is through innovation, not Government taxation or 
regulation. The USE IT Act will continue to cement the United 
States as a global innovation leader in carbon capture. The 
United Nations Intergovernmental Panel on Climate Change has 
recognized the pivotal role that carbon capture can play in 
meeting its climate targets.
    My support for climate innovation does not rest on carbon 
capture alone. We have worked together in a bipartisan manner 
on this Committee to support the most reliable zero emission 
source of energy that we have, which is nuclear energy. Last 
year we passed the Nuclear Energy Innovation and Modernization 
Act. We must continue to address fundamental issues to allow 
nuclear energy to grow in the future, issues like the need to 
properly manage and dispose of spent nuclear fuel at Yucca 
Mountain.
    The second bill we are going to consider today is another 
important step forward in addressing emissions that contribute 
to climate change, S. 747, the Diesel Emissions Reduction Act 
of 2019, or DERA. Since Congress first created the program in 
2005, it has enjoyed broad bipartisan support. This legislation 
would reauthorize the Diesel Emissions Reduction Act through 
fiscal year 2024.
    I want to thank the Ranking Member and his staff for his 
leadership on this program throughout the years. The program 
has been one of the most cost efficient clean air programs. 
Like the USE IT Act, the Diesel Emissions Reduction Act 
supports innovation led solutions to environmental protection.
    Upgrading diesel engines not only reduces nitrogen oxide, 
but also emissions of both black carbon and carbon dioxide. 
Black carbon is a component of particulate matter that has a 
global warming potential that may be thousands of times higher 
than carbon dioxide over a 20-year timeframe.
    So, today we are moving two bipartisan bills out of this 
Committee that are going to reduce emissions that contribute to 
climate change, and there will be more to come. The USE IT Act 
and the Diesel Emissions Reduction Act of 2019 each passed our 
Committee by voice vote in the last Congress. I urge my 
colleagues to once again support passage of these bills today, 
as we work it across the full Senate and get signed into law.
    When we work together, we have shown that we can promote 
American leadership, grow our economy, and lower emissions.
    The third bill we will consider is S. 1061, the John F. 
Kennedy Center Reauthorization Act of 2019, which reauthorizes 
funding for the Kennedy Center. Last Congress, this Committee 
approved this legislation by a voice vote, and the Senate 
passed it by unanimous consent.
    We will also consider eight resolutions to approve 
prospectuses providing for General Services Administration 
lease acquisition and alteration.
    After Ranking Member Carper gives his opening statement and 
other members make remarks, at 10:15 we will proceed to vote on 
the items on our agenda provided we have a reporting quorum. 
After we finish voting, I will be happy to recognize other 
members who wish to speak.
    I would now like to turn to our Ranking Member for comments 
that he might like to make.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Walking up from the train station this morning, I came out 
of Union Station and looked up Delaware Avenue to the Capitol, 
and I saw sunshine, I saw blue skies. The Capitol was just 
glistening in the sunlight. It was like what Christoph Toulouse 
would say, a top 10 day. It is just a glorious day.
    And at a time when there is a fair amount of diversity and 
disagreement in our country, and frankly around the world, and 
our Government, and to some extent, in this Senate, there is 
something to celebrate, and that is when we can find common 
ground and work together to address some big challenges that we 
face on this planet, so I am happy to be here with all of you, 
grateful to the Chairman for convening us today.
    I want to follow up on his remarks with remarks of my own 
about the two pieces of legislation that he was talking about 
that he and I have collaborated on, along with Sheldon 
Whitehouse, along with Jim Inhofe and others on this Committee, 
and one of those is the Diesel Emissions Reduction Act, known 
as DERA, and the Utilizing Significant Emissions with 
Innovative Technologies, known as the USE IT Act.
    Both of these bills are good for our environment; they are 
also good for our economy, and they are important in our fight 
against climate change.
    Some of our newer colleagues on our Committee have not 
heard this story before, so I am going to share it with you. I 
think it was 2005. George Voinovich, from Ohio--Republican, 
former Governor and Senator from Ohio, from Cleveland--came to 
me one day. He said, I would like to share with you an idea, a 
legislative idea that actually reduces emissions, harmful 
emissions from diesel engines. I said, how big a problem is 
that, and he said, well, there are millions of them. He said, 
the old diesel engines, the good thing about them is they last 
a long time; the bad thing about them is that they last a long 
time, and they spew out all kinds of stuff.
    We have all sat at a stop light before and had a big diesel 
truck before us or besides us. When the light changes, the 
trucks hits out all this black stuff that comes out of their 
emissions. As the Chairman has mentioned, some of it is black 
carbon, and whether you believe in climate change or not, it is 
bad stuff. It can be as much as 1,000 times worse for our 
environment, for our climate than regular carbon dioxide.
    They used to ask Willie Sutton, why do you rob banks--back 
in the Great Depression--and he said because that's where the 
money is. Well, carbon emissions, diesel emissions are where a 
lot of the bad stuff is coming from.
    George said to me, he said, Tom, the nice thing about this 
technology is you can actually put it on existing diesel 
engines, boats, cars, trucks, locomotives, and he said it will 
reduce emissions by as much as 90 percent. I said, well, that 
is great. He said, not only that, the technology is developed 
by Corning, up in New York, so it is American technology.
    We can do good things for our environment, for our planet, 
and we can create jobs using American technology and sell the 
technology around the world, and this legislation has been, 
with Jim Inhofe's strong support and leadership, we have taken 
this up, we have reauthorized this every several years, and we 
are prepared to do that again.
    I would just say there are a number of our colleagues on 
this Committee are cosponsors of this legislation. For those 
who aren't, I would urge you to join us; it is one of those 
great intersections between cleaner air, better environment, 
and creating jobs, American jobs. For me, that is the Holy 
Grail where we want to go to.
    I want to thank all of our colleagues for being a big part 
of not only reauthorizing the Diesel Emissions Reduction Act, 
but actually making it better.
    I was invited by Rob Portman to speak at a staff retreat 
last week, staff here on Capitol Hill, and it includes a lot of 
George Voinovich folks, alums, and I know that George is 
looking down today, very excited and happy with what we are 
doing.
    The USE IT Act that we are voting on today, as the Chairman 
mentioned, is intended to support widespread development and 
deployment of carbon capture, utilization, and sequestration 
technologies, also known as CCUS. This includes making smart 
investments in direct air capture, which sucks carbon dioxide 
right out of the air.
    I know some of this technology is nascent. I think they are 
doing more with it in Europe than we have been doing, but I 
like to say there is no silver bullet as we try to address 
these issues, but there are a lot of silver BBs, and a big one 
can be figuring out how to suck carbon right out of the air, 
and that is what we are pushing with this legislation in the 
USE IT Act.
    I hasten to add that DERA and the USE IT Act cannot be the 
only climate actions that our Committee takes. We need broad, 
bold climate action to protect our planet.
    That said, I do appreciate that now, at a time when our 
country is looking for ways to create jobs, achieve healthier 
air, and a safer climate, cleaning up dirty diesel engines and 
deploying CCUS are two of many ways we can achieve these goals.
    That leads us to our third bipartisan bill, which would 
reauthorize funding for the Kennedy Center. I want to thank our 
Chairman for reintroducing this legislation. I am happy to co-
sponsor the bill along with Senators Capito and Cardin. This 
bill is another excellent example of what we can accomplish 
when we work together to get things done, and I look forward to 
collaborating, Mr. Chairman, with you and all of our colleagues 
on this Committee, as well as our friends in the House and 
Senate to get it to the President's desk.
    Today we are considering eight GSA prospectuses and 
resolutions. These are not controversial prospectuses; they 
have been identified as high priorities by the GSA.
    I would ask for the opportunity just to enter into the 
record the rest of my statement.
    Thank you, Mr. Chairman.
    Senator Barrasso. Without objection, we look forward to 
entering that into the record.
    [The prepared statement of Senator Carper was not received 
at time of print.]
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. Just real briefly. I always relish the time 
that Senator Carper and I can agree on something, and to have 
three bills in one meeting, I am excited about it.
    Now, where are your Democrats? We need a quorum.
    [Laughter.]
    Senator Barrasso. We had announced that we would vote at 
10:15, and we are a little short of that number. A number of 
Democrats were here, but right now the Attorney General is 
testifying in another committee, as is the Secretary of State 
in a different committee, so I know people have been running in 
and out. We hope to be able to vote in a few seconds, when a 
couple more members will show up, so we will just stand in 
recess for a little while to wait for that.
    Senator Carper. I have asked my staff to reach out far and 
wide to get as many Democrats here as quickly as we can, so 
thank you for your patience.
    [Recess.]
    Senator Barrasso. Well, now that members of the Committee 
have arrived, we will vote on the items of today's agenda.
    The Ranking Member and I have agreed to vote on the three 
bills and eight General Services Administration resolutions en 
bloc by voice vote. Members may choose to have their votes 
recorded for a specific item in that bloc after the voice vote.
    The Ranking Member and I have further agreed that S. 1061, 
the John F. Kennedy Center Reauthorization Act of 2019, which 
was introduced on April 8th, replaces the text that was 
circulated with a notice on April 5th. This introduced bill is 
identical to the text that was circulated.
    I would now like to call up S. 383, the Utilizing 
Significant Emissions with Innovative Technologies Act; S. 747, 
the Diesel Emissions Reduction Act of 2019; S. 1061, the John 
F. Kennedy Center Reauthorization Act of 2019; and eight 
General Services Administration resolutions en bloc.
    I move to approve and report S. 383, S. 747 and S. 1061 
favorably to the Senate and approve eight GSA resolutions en 
bloc.
    Is there a second?
    Senator Inhofe. Second.
    Senator Carper. Second.
    Senator Barrasso. All those in favor say aye.
    [Chorus of ayes.]
    Senator Barrasso. All those opposed, say nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it.
    We have now approved S. 383, S. 747, S. 1061, which will be 
reported favorably to the Senate. We have also approved eight 
GSA resolutions.
    The voting part of the meeting having finished, I am happy 
to recognize any member who wishes to make a statement on any 
of the legislation or resolutions we have just approved.
    Seeing none, I have a number of letters of support for the 
legislation and I ask unanimous consent to enter into the 
record statements of support for the USE IT Act from the 
National Mining Association and the National Wildlife 
Federation.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. I also ask unanimous consent to enter 
into the record a letter of support of the Diesel Emissions 
Reduction Act of 2019 from the U.S. Chamber of Congress.
    Without objection, it is done.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. I ask unanimous consent that the staff 
have authority to make technical and conforming changes to each 
of the matters approved today.
    With that, our business meeting is concluded, and we are 
adjourned.
    [Whereupon, at 10:25 a.m. the Committee was adjourned.]
    [Text of legislation and additional material follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
